            Office of Inspector General




December 13, 2006

ELLIOT P. LEWIS
ASSISTANT INSPECTOR GENERAL,
 DEPARTMENT OF LABOR

SUBJECT: Transmittal Letter – Postal Service’s Schedule Awards
         Program in the New York Metro Area – Report II
         (Report Number HM-AR-07-001)

This letter and attached report1 present the results of our self-initiated review of
the Department of Labor’s (DOL) Office of Workers’ Compensation Programs
(OWCP) Schedule Awards Program in the U.S. Postal Service’s New York Metro
Area (Project Number 06YG019HM001). Our objectives were to determine
whether the Postal Service was over- or undercharged for schedule award
payments and received credits due from the DOL OWCP for chargeback years
(CBYs) 2004 and 2005.

In accordance with the DOL Office of Inspector General (OIG) Protocol for OIG
Audits, Inspections, Evaluations, and Investigations of the Federal Employees’
Compensation Act Program, we would like the DOL OIG to address two issues
we identified during our review with the OWCP. These issues were that (1)
OWCP handbooks and course materials do not contain information on how
OWCP participating agencies should calculate and verify schedule award
payments, and (2) participating agencies do not receive notifications from the
OWCP of “new” weekly or monthly schedule award payments resulting from cost-
of-living adjustment (COLA) increases.2 The first issue was a primary cause why
Postal Service managers and injury compensation specialists did not know how
to calculate or verify authorized schedule award amounts. The second issue
affects how participating agencies monitor increases to schedule award
payments.




1
  Postal Service’s Schedule Awards Program in the New York Metro Area – Report I (Report Number
HM-AR-06-007, dated September 29, 2006).
2
  The COLA is an annual increase in benefits to cover increases associated with living expenses.
Postal Service’s Schedule Awards Program                                    HM-AR-07-001
 in the New York Metro Area – Report II


OWCP Course Materials Do Not Address Schedule Awards’ Calculations

OWCP policy3 states quarterly chargeback reports can be used by participating
agencies to identify and correct errors before the agency is billed for them.
OWCP policy4 further states that agencies are responsible for informing the
OWCP of incorrect entries appearing on the quarterly chargeback report. Postal
Service policy5 further supports that it is required to monitor compensation
payments via the chargeback summary and detail reports and immediately notify
the OWCP district office of any overpayments.

Based on interviews with seven6 Postal Service district injury compensation
managers, a primary reason employees were potentially over- and underpaid
was because managers and injury compensation specialists did not know how to
calculate or verify the authorized schedule award amounts.

The OWCP offers several courses to assist agencies in processing
compensation claims.7 Materials for these courses, however, did not include
information on how to calculate or verify a schedule award payment. Postal
Service handbooks and training course materials related to claims management
also did not address the calculation or verification of schedule awards payments.
(See pages 6 through 10 in the attached report for additional information.)

Notifications to Employees and Agencies of COLAs

Employees approved by the OWCP for schedule award payments receive a
schedule award of compensation letter outlining the:

        •   Number of weeks of compensation
        •   Weekly compensation
        •   Weekly pay rate
        •   Percentage of pay rate
        •   Period of award
        •   Degree and nature of impairment

The OWCP also sends a copy of the letter to the employing agency. However,
the OWCP does not send agencies amended letters showing the “new” weekly or
monthly payment amounts as a result of the COLA increase. Agencies are

3
  Publication Compensation Act (CA)-810, Injury Compensation for Federal Employees, Section 9-5,
Chargeback, (Part C) Quarterly Chargeback Reports.
4
  Publication CA-810, Injury Compensation for Federal Employees, Section 9-5, Chargeback, (Part B)
Errors.
5
  Handbook Employee and Labor-505, Injury Compensation, Section 13.18, Recovering Compensation
Overpayment, December 1995.
6
  We interviewed the injury compensation managers in the Caribbean, Central New Jersey, Long Island,
New York, Northern New Jersey, Triboro, and Westchester Districts.
7
  Publication CA-810, A Handbook for Agency Personnel, February 1994, identifies the following four
courses: the Federal Employees’ Compensation Act (FECA) Seminar, the Basic Compensation Specialist
Workshop, Advanced Compensation Specialist Training, and the FECA Supervisors’ Workshop.


                                                  2
Postal Service’s Schedule Awards Program                     HM-AR-07-001
 in the New York Metro Area – Report II


notified by letter of an upcoming COLA increase only if the COLA is known at the
time the original schedule award of compensation letter is prepared.

According to OWCP’s Deputy Director, Division of Federal Employees’
Compensation, an employee receives notice of a COLA increase when they
receive their schedule award payment. Regarding OWCP’s notification to the
agency, the Deputy Director said that when the COLA is applied each March 1,
the agency is free to contact one of OWCP’s offices to determine the amounts.
He added that COLA information is also included in program bulletins that are
posted to OWCP’s Website, but stated there is a lag time before that happens.
(See pages 10 through 11 in the attached report for additional information.)

Because the OWCP has program responsibility for schedule awards, it should
provide participating agencies with instructions on how to calculate and verify
schedule award payments, and should advise agencies of COLA changes to
employees’ schedule awards payments. This would help the agencies monitor
increases in schedule award payments to ensure they are correct and would
enable agencies to identify and correct errors before they are billed by the
OWCP.

We request the DOL OIG recommend the DOL OWCP:

   1. Include in their handbooks and training course materials instructions to
      participating agencies on how to calculate and verify schedule award
      payments. This information should be provided to all participating
      agencies as soon as it is available.

   2. Provide participating agencies with notifications of “new” weekly or
      monthly schedule award payments resulting from COLA increases.

These recommendations should help the Postal Service and other participating
federal agencies verify schedule award payments to employees.

If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, or me at (703) 248-2100.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachment


                                           3
Postal Service’s Schedule Awards Program       HM-AR-07-001
 in the New York Metro Area – Report II



cc: Deborah M. Giannoni-Jackson
    Gordon Heddell
    Ronald E. Henderson
    Steven R. Phelps




                                           4
